No.
IN THE

Supreme Court of the United States
ROBERT PHILLIP IVERS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29 and the April 15 Order of this Court,
I, Brett D. Kelley, an attorney appointed to represent petitioner under the Criminal
Justice Act, 18 U.S.C. § 3006A, hereby certify that, on this 18th day of February,
2021, all parties required to be served have been served copies of the Motion for Leave
to Proceed in Forma Pauperis and Petition for a Writ of Certiorari in this matter to
the addresses on the attached service list. The Solicitor General was served via email
and United States mail, first-class postage prepaid. Assistant U.S. Attorney Emily A.
Polachek was served via email, per agreement.
BRETT D. KELLEY
CJA Counsel for Petitioner
KELLEY, WOLTER & SCOTT, P.A.
Centre Village Offices
Suite 2530
431 South Seventh Street
Minneapolis, MN 55415
Tel: (612) 371-9090
Fax: (612) 371-0574
bkelley@kelleywolter.com

SERVICE LIST

ELIZABETH PRELOGAR
Solicitor General of the United States
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave. N. W., Room 5616
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

2

EMILY A. POLACHEK
Assistant U.S. Attorney
U.S. ATTORNEY’S OFFICE
DISTRICT OF MINNESOTA
600 U.S. Courthouse
300 South Fourth Street
Minneapolis, MN 55415
(612) 664-5600
emily.polachek@usdoj.gov

